No. 19-791
In the

Supreme Court of the United States
__________________
ANDERSON LAW OFFICES, ET AL.,
Petitioners,
v.
COMMON BENEFIT FEE AND COST COMMITTEE,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

__________________
BRIEF IN OPPOSITION
__________________
Benjamin L. Bailey
Counsel of Record
Raymond S. Franks II
BAILEY GLASSER LLP
209 Capitol Street
Charleston, WV 25301
(304) 345-6555
bbailey@baileyglasser.com
rfranks@baileyglasser.com
Counsel for Respondent Common
Benefit Fee and Cost Committee

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
In accordance with Rule 15(2) of the Rules of the
United States Supreme Court, Respondent Common
Benefit Fee and Cost Committee objects to
consideration of this Petition in that Petitioners, as
Participating Counsel in the common benefit process
authorized by the district court, knowingly and
voluntarily waived their right to appeal, including their
right to seek certiorari from this Court. The district
court and the Fourth Circuit each enforced the appeal
waiver against Petitioners. This Petition should be
rejected on the same basis.

ii
CORPORATE DISCLOSURE STATEMENT
Respondent Common Benefit Fee and Cost
Committee was appointed by the district court, and it
has no parent corporations or stock of which a publicly
held corporation may own 10% or more. Respondent is
not aware of any publicly held corporation having a
direct financial interest in the outcome of this litigation
by reason of a franchise, lease, other profit-sharing
agreement, insurance, or indemnity agreement.

iii
STATEMENT OF RELATED PROCEEDINGS
% In re Ethicon, Inc. — Kline & Specter, P.C. v.
Common Benefit Fee & Cost Comm., No. 19-1224(L)
(dismissed 4th Cir. June 14, 2019), rehearing and
rehearing en banc denied (July 15, 2019).
% In re Ethicon, Inc. — Bernstein Liebhard LLP v.
Common Benefit Fee & Cost Comm., No. 19-1892
(dismissed 4th Cir. Sept. 23, 2019).
% In re Ethicon, Inc. — Mazie Slater Katz & Freeman,
LLC v. Common Benefit Fee & Cost Comm., No. 191943(L) (dismissed Oct. 9, 2019), rehearing and
rehearing en banc denied (Nov. 5, 2019).

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
BRIEF IN OPPOSITION FOR RESPONDENT
COMMON BENEFIT FEE AND COST
COMMITTEE . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
FEDERAL AUTHORITIES INVOLVED . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Factual and Procedural Background . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
1. There is no important question of federal law.
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
2. There is no conflict of authority. . . . . . . . . . . 13
3. In addition to the Petition’s failure to meet
the Court’s criteria for review on certiorari,
the Fourth Circuit properly dismissed
Petitioners’ attempted appeal based on their
knowing and voluntary waiver.. . . . . . . . . . . 14

v
4. Petitioners’ attempt to disavow the MDLs in
which Petitioner Anderson signed and
submitted the Management Order only
underscores the logical incongruity of its
position here. . . . . . . . . . . . . . . . . . . . . . . . . . 21
5. There is no principled distinction to be made
between the amounts allocated and the
process used to determine them. . . . . . . . . . . 24
6. Additional considerations render this matter
unsuitable for Court review. . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

vi
TABLE OF AUTHORITIES
CASES
AMF, Inc. v. Jewett,
711 F.2d 1096 (1st Cir.1983) . . . . . . . . . . . . . . . 17
Beathard v. Johnson,
177 F.3d 340 (5th Cir. 1999). . . . . . . . . . . . . . . . 11
In re Bextra and Celebrex Mktg. Sales Practices and
Prod. Liab. Litig.,
386 Fed. App’x 584 (9th Cir. 2010) . . . . . . . . . . 24
Brown v. Gillette Co.,
723 F.2d 192 (1st Cir. 1983) . . . . . . . 14, 17, 18, 20
Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532 (1985). . . . . . . . . . . . . . . . . . . . . . . 12
In re C.R. Bard, Inc. (Mazie, Slater, Katz &
Freeman, LLC v. Common Benefit Fee and Cost
Comm.),
No. 19-1943 (4th Cir. 2019) . . . . . . . . . . . . . . . 1, 4
In re Ethicon, Inc. — Kline & Specter, P.C. v.
Common Benefit Fee & Cost Comm.,
No. 19-1224(L), 2019 WL 4120999 (June 14,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
In re Ethicon, Inc. (Kline & Specter, P.C. v. Common
Benefit Fee and Cost Comm.),
No. 19-1224 (4th Cir. 2019) . . . . . . . . . . . . . . . 4, 8
Goodsell v. Shea,
651 F.2d 765 (C.C.P.A. 1981) . . . . . . . . . 14, 16, 17

vii
Hensley v. Eckerhart,
461 U.S. 424 (1983). . . . . . . . . . . . . . . . . . 9, 14, 15
In re Lybarger,
793 F.2d 136 (6th Cir. 1986). . . . . . . . . . . . . 19, 20
Kehoe v. Renico,
No. 01-10077, 2007 WL 162278 (E.D. Mich.
Jan. 16, 2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
MACTEC, Inc. v. Gorelick,
427 F.3d 821 (10th Cir. 2005). . . . . . . . . . . . 14, 19
Montana v. Egelhoff,
518 U.S. 37 (1996). . . . . . . . . . . . . . . . . . . . . . . . 11
Nken v. Holder,
556 U.S. 418 (2009). . . . . . . . . . . . . . . . . . . . . . . . 8
Payne v. SS Tropic Breeze,
423 F.2d 236 (1st Cir. 1970) . . . . . . . . . . . . . 17, 18
Slattery v. Ancient Order of Hibernians in America,
Inc.,
No. 97-7173, 1998 WL 135601
(D.C. Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . . 18, 19
Ziyad Mini Market v. U.S.,
302 F. Supp. 2d 124 (W.D.N.Y. 2003) . . . . . 16, 20
STATUTES
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RULES
SUP. CT. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 14
SUP. CT. R. 10(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

viii
SUP. CT. R. 10(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
SUP. CT. R. 10(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

1
BRIEF IN OPPOSITION FOR
RESPONDENT COMMON BENEFIT
FEE AND COST COMMITTEE
OPINIONS BELOW
% ECF No. 16, In re C. R. Bard, Inc. — Anderson Law
Offices, et al. v. Common Benefit Fee & Cost Comm.,
No. 19-1849(L) (Summary Order of Dismissal)
(Sept. 23, 2019).
% ECF No. 8453, In re Ethicon, Inc., No. 2:12-md02327 (Allocation Order) (July 25, 2019).
****
% ***RELATED*** In re Ethicon, Inc. — Kline &
Specter, P.C. v. Common Benefit Fee & Cost Comm.,
No. 19-1224(L) (Order), 2019 WL 4120999 (June 14,
2019).
% ***RELATED*** In re C.R. Bard, Inc. (Mazie,
Slater, Katz & Freeman, LLC v. Common Benefit
Fee and Cost Comm.), No. 19-1943 (4th Cir. 2019).

2
JURISDICTION
The United States Court of Appeals for the Fourth
Circuit entered its Judgment Order on September 23,
2019, dismissing the consolidated appeals docketed by
Petitioner Anderson Law Offices (“ALO”), and
Petitioner Benjamin H. Anderson (“Anderson”)
(collectively, “Petitioners”). Petitioners thereafter filed
the instant Petition for a writ of certiorari on December
18, 2019. Jurisdiction in this Court is asserted
pursuant to 28 U.S.C. §1254(1).
FEDERAL AUTHORITIES INVOLVED
Respondent Common Benefit Fee and Cost
Committee (“FCC”), as explained in detail infra,
disagrees with Petitioners that this matter presents
any substantial question implicating the Fifth
Amendment’s Due Process Clause or, indeed, any
cognizable issue arising under the Constitution or laws
of the United States.
STATEMENT OF THE CASE
Introduction
The instant Petition stems from an attempted
appeal, dismissed by the Fourth Circuit, from the
district court’s order allocating to Petitioners common
benefit attorney fees and expenses in an amount less
than they believed they deserved. The Fourth Circuit
dismissed Petitioners’ appeal on the basis of an appeal
waiver set forth in an agreed order first entered by the
district court in 2012. The same waiver applies here,
and Respondent objects to this Petition on the ground

3
that Petitioners forfeited their right to have any court
— including this Court — consider their appeal.
Petitioner Anderson and his law firm, Petitioner
ALO, comprised of himself and two paralegals, seek to
challenge their award by the district court of an initial
allocation of nearly $10 million dollars in common
benefit attorney fees and expenses, with additional
sums to be distributed in accordance with subsequent
court orders. As both the district court and the Fourth
Circuit properly found, Petitioners knowingly and
voluntarily waived their right to appeal the district
court’s award. As a result of their dissatisfaction with
their award, Petitioners ask the Court to grant
certiorari to allow them to pursue an appeal
notwithstanding their waiver. Petitioners urge the
Court to nullify an order to which they and all other
law firms seeking potential common benefit
compensation agreed more than seven years ago now,
and to begin anew the months-long deliberative process
regarding the award of common benefit fees and
expenses. Petitioners assert that position despite the
distribution to date of over $460 million dollars to more
than ninety law firms, including the first continuing
quarterly distribution, which prior distributions
Petitioner concedes are not implicated by its Petition.
On January 30, 2019, the district court, having
presided for nearly nine years over one of the largest
cases in this nation’s history — seven related
multidistrict litigation (“MDL”) proceedings involving
allegedly defective pelvic mesh products consisting of
over 100,000 individual claimants — entered an order
approving a unitary MDL common benefit fund for

4
attorney fee and expense awards, funded by a fivepercent “holdback” of each individual plaintiff’s
settlement or judgment. On July 25, 2019, the district
court entered its Allocation Order dividing the fund
proceeds among the ninety-two law firms that provided
services and incurred expenses for the common benefit
of the MDL plaintiffs. See App. at 11-18. Petitioners
have to date received more than $9 million in attorney
fees and over $1 million in expense reimbursements as
the result of the Allocation Order, the tenth highest
total award. Going forward, Petitioners will continue
to receive additional common benefit payments.
Dissatisfied with their near-eight-figure award,
Petitioners appealed to the Fourth Circuit, seeking to
challenge the Allocation Order. The court of appeals
dismissed the filing as barred by an appeal waiver
contained within an agreed order entered by the
district court at the outset of the MDL. That agreed
order established the procedures whereby applications
for common benefit reimbursement might eventually be
considered, and its attendant waiver went
unchallenged for more than six years — until
Petitioners became dissatisfied with the outcome of the
allocation process. Before and after the dismissal at
issue here, the Fourth Circuit dismissed two other
appeals based on the same appeal waiver, and in both
appeals, the court denied petitions for rehearing en
banc. See In re Ethicon, Inc. (Kline & Specter, P.C. v.
Common Benefit Fee and Cost Comm.), No. 19-1224
(4th Cir. 2019); In re C.R. Bard, Inc. (Mazie, Slater,
Katz & Freeman, LLC v. Common Benefit Fee and Cost
Comm.), No. 19-1943 (4th Cir. 2019).

5
Factual and Procedural Background
As the MDL proceedings got underway in 2012,
Plaintiffs’ leadership — including Petitioners —
submitted to the district court an “Agreed Order
Regarding Management of Timekeeping, Cost
Reimbursement and Related Common Benefit Issues”
(the “Management Order”), which set forth procedures
and guidelines for law firms’ submissions of
applications for potential reimbursement for common
benefit fees and expenses.1
The court-appointed Plaintiffs’ Steering Committee
(“PSC”) — of which Petitioner Anderson is a member —
reviewed and approved the Management Order prior to
its submission to the district court. The Management
Order provides, in pertinent part:
“Participating counsel” are counsel who
subsequently desire to be considered for common
benefit compensation and as a condition
thereof agree to the terms and conditions
herein and acknowledge that the court will

1

The same agreed Management Order was submitted to the
district court and entered in each of the seven individual MDLs.
See ECF No. 303, American Medical Systems MDL 2325 (Oct. 4,
2012); ECF No. 365, Bard MDL 2187 (Oct. 4, 2012); ECF No. 212,
Boston Scientific MDL 2326 (Oct. 4, 2012); ECF No. 282, Ethicon
MDL 2327 (Oct. 4, 2012); ECF No. 15, Coloplast MDL 2387 (Oct.
4, 2012); ECF No. 43, Cook MDL 2440 (Oct. 28, 2013); ECF No. 78,
Neomedic MDL 2511 (Dec. 22, 2015). The agreed Management
Orders in the Cook and Neomedic MDLs were signed and
submitted to the district court by Petitioner Benjamin H. Anderson
on behalf of both Petitioners, together with other members of
Plaintiffs’ MDL leadership.

6
have final, non-appealable authority
regarding the award of fees, the allocation of
those fees and awards for cost reimbursements
in this matter. Participating counsel have
(or will have) agreed to and therefore will
be bound by the court’s determination on
common benefit attorney fee awards,
attorney fee allocations, and expense
awards, and the Participating Counsel
knowingly and expressly waive any right to
appeal those decisions or the ability to
assert the lack of enforceability of this
Agreed Order or to otherwise challenge its
adequacy.
(emphasis added). The Management Order was
expressly incorporated by reference in each of the three
subsequent common benefit orders entered by the
district court.2 Neither Petitioner nor any other law
firm or plaintiff asserted any timely objection to the
Management Order, to any of its terms and provisions
(including the appeal waiver), or to any of the multiple
subsequent common benefit orders in which the
Management Order was incorporated.

2

See ECF No. 747, Ethicon MDL 2327 (“Agreed Order Establishing
MDL Fund to Compensate and Reimburse Attorneys for Services
Performed and Expenses Incurred for MDL Administration and
Common Benefit”), at 1; ECF No. 1845, id. (“Order Establishing
Criteria for Applications to MDL Fund . . . and Appointment of
Common Benefit Fee and Cost Committee”), at 2; ECF No. 4044,
id. (“Fee Committee Protocol”), at 1. The same orders were
entered in each of the MDLs.

7
By its January 30, 2019 Memorandum Opinion and
Order, the district court granted the FCC’s petition for
the award of common benefit attorney fees and
expenses amounting to five percent of all plaintiffs’
recoveries, the full amount that the court had
previously held back for that purpose (the “Common
Benefit Award”).3 Then, on July 25, 2019, the district
court entered its Allocation Order, directing the specific
distribution of the common benefit funds to
Participating Counsel.4
The district court denied Petitioners’ motion to stay
enforcement of the Allocation Order pending appeal,
noting that the Fourth Circuit had previously
dismissed another firm’s attempted appeal of the
Common Benefit Award, thus enforcing the identical
appeal waiver in the Management Order that
Petitioners sought to bypass. See ECF No. 8471,
“Order Denying Appellants’ Motion to Stay,” Ethicon
MDL 2327 (Aug. 2, 2019). The court elaborated:
I specifically addressed the structure for the
performance of common benefit work, the
establishment of a common benefit fund, and I
prescribed conditions for participation in the
performance of common benefit work. All the
participating law firms agreed to the conditions
for participation which included a waiver of any
right to appeal my final determination as to fee
3

The Common Benefit Award was entered in each of the MDLs.
See e.g., ECF No. 7519, Ethicon MDL 2327 (Jan. 30, 2019).
4

The Allocation Order was entered in each of the MDLs. See, e.g.,
ECF No. 8453, Ethicon MDL 2327 (July 25, 2019).

8
and cost allocations.
This provision was
considered desirable by the participants and by
me, as we were all aware of the potential for
tactical peripheral litigation concerning
attorneys’ fees. The earlier appeal . . . and the
pending motion makes plain that we were
prescient.
****
Any movant for a stay pending appeal must
make a strong showing that he is likely to
succeed on the merits. See, e.g., Nken v. Holder,
556 U.S. 418, 434 (2009). Upon consideration, I
find no good-faith legal basis for ALO’s motion
for a stay pending appeal much less a chance for
success on the merits. ALO along with other
participating counsel “knowingly and voluntarily
agreed to be bound by the district court’s
attorneys’ fees and expenses determinations
and, thus…waived its right to appeal its
attorneys’ fees and expenses award.” In re
Ethicon, Inc., Nos. 19-1224–30 (4th Cir. 2019).
One who has waived his right to appeal has no
chance of succeeding with it.
Id. at 1-2.
Recognizing that appeal was foreclosed, Petitioners
filed a separate Motion to Partially Alter, Amend or
Reconsider Judgment, requesting that the district court
amend the Allocation Order to relieve them from the
appeal waiver due to the alleged “manifest injustice” of
having previously forfeited their appeal rights. In

9
denying Petitioner’s Motion to Amend, the District
Court observed:
ALO . . . has fallen far short of demonstrating
that the appellate waiver results in a manifest
injustice. ALO agreed to waive its appellate
rights of this court’s fee allocation and did so
knowingly and voluntarily. As this court has
noted throughout this litigation, “a request for
attorney’s fees should not result in a second
major litigation.” Hensley v. Eckerhart, 461 U.S.
424, 437 (1983). The appellate waiver set forth
in this court’s Management Order avoids the
potential for such litigation. ALO’s knowing and
express waiver of the right to appeal does not
result in a manifest injustice simply because
ALO was unhappy with this court’s Allocation
Order. ALO has failed to meet its burden of
demonstrating that this court should impose the
“extraordinary remedy” of amending its prior
judgment.
ECF No. 8470, Ethicon MDL 2327 (Aug. 2, 2019), at 23. Petitioners fared no better before the Fourth
Circuit, which likewise denied a stay and dismissed the
attempted appeal of the Allocation Order as dictated by
its prior dismissal of the appeal of the Common Benefit
Award, just as the district court predicted.

10
ARGUMENT
The Court will grant a petition for a writ of
certiorari “only for compelling reasons.” SUP. CT. R. 10.
The reasons deemed compelling enough for Court
review typically arise from an irreconcilable conflict
among the federal courts of appeals — or between one
of those courts and a state court of last resort — on an
“important federal question.” Id. 10(a); see id. 10(b)
(providing similarly for review of conflicting state-court
decisions). Review may also be compelling when an
important federal law question decided by a lower
tribunal is unsettled or is in conflict with established
Court precedent. See id. 10(c).
The keystones are “conflict” and an “important
question of federal law,” neither of which are present in
this case. Indeed, the gravamen of Petitioners’
complaint is that the court-appointed External Review
Specialist (“ERS”) found on the facts before it that the
various Participating Counsel were entitled to a
particular allocation of the available common benefit
funds; that the ERS’s findings in that regard were
erroneous; that the district court sanctioned those
erroneous findings; and that the court of appeals
erroneously found those findings unappealable. This
Court’s rules, however, expressly provide that “[a]
petition for certiorari is rarely granted with the
asserted error consists of erroneous factual findings or
the misapplication of a properly stated rule of law.”
SUP. CT. R. 10(c).

11
1. There is no important question of federal
law.
Petitioners attempt to portray their argument as
implicating the constitutional right to due process. See
Petition at 1, 17, 26. However, Petitioners’ objections
to the district court’s allocation of attorney’s fees and
expenses are little more than an after-the-fact effort to
argue principles of contract law with respect to an
unambiguous agreed court order whose entry
Petitioners approved, including an appeal waiver
provision to which they and all other Participating
Counsel knowingly and voluntarily consented. The
district court overruled Petitioners’ objections to its
Allocation Order, and the Fourth Circuit dismissed
Petitioners’ appeal. Though there was no error below,
any errors alleged by Petitioners regarding the
construction or application of the district court’s orders
certainly “do not rise to the level of constitutional
violations.” Beathard v. Johnson, 177 F.3d 340, 347
(5th Cir. 1999); see, e.g., Kehoe v. Renico, No. 01-10077,
2007 WL 162278, at *5 (E.D. Mich. Jan. 16, 2007)
(recognizing that such rulings “cannot rise to the level
of due process violations unless they ‘offend[] some
principle of justice so rooted in the traditions and
conscience of our people as to be ranked as
fundamental.’” (quoting Montana v. Egelhoff, 518 U.S.
37, 43 (1996) (additional citations omitted))). None of
Petitioners’ arguments implicate due process.
Respondent notes that every applicant below,
specifically including Petitioners, received extensive
information in advance concerning how applications
would be evaluated, together with an explanation of

12
work or expenses that were questioned or disallowed,
as well as the recognized hours and allocation for all
applicant firms. The applicants were also afforded
multiple opportunities to object and be heard, and to
exchange feedback with the FCC and the courtappointed ERS. See ECF No. 7640-2, Ethicon MDL
2327 (“Declaration of FCC Chairman”), at ¶¶ 103-228;
see also App. 111-13. Petitioners filed thousands of
pages of pleadings in the district court relating to their
fee and expense award and the allocation process.
Petitioners appeared before the FCC, and Petitioners
had every chance to address any issues it deemed
appropriate. See ECF No. 7816, Ethicon MDL 2327
(“Omnibus Response by Certain Plaintiffs/Common
Benefit Fee and Cost Committee to Objection[s]”), at
23-24. Petitioner Anderson also met in person with the
ERS. See id. Each applicant had the additional
opportunity to press its objections before the district
court. See, e.g., App. 187.
Petitioners cannot deny that they availed
themselves of the numerous opportunities they were
afforded to make their case regarding the distribution
of attorneys’ fees and expenses as part of the common
benefit allocation process established by the district
court. See, e.g., App. 50, 116, 187-223, 224-231. Those
opportunities were quite simply “all the process that is
due” under the district court’s common benefit orders.
Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 547
(1985). Moreover, Petitioners’ attempt to question the
fairness of the allocation process disregards the facts.
As the district court observed, the common benefit
orders establishing the procedure for allocation of fees
were “designed for transparency and equitable

13
distribution of common benefit monies,” ECF No. 8470,
Ethicon MDL 2327 at 2-3, intended to “assur[e]
procedural fairness” by providing myriad opportunities
to be heard, ECF No. 8471, id. at 1.
Because Petitioners lose on a straightforward
application of the unambiguous appeal waiver set forth
in the Management Order, they resort to collateral
attacks regarding contractual formation and “implied
waiver.” Petitioners’ arguments, belying their knowing
and voluntary agreement to the waiver to begin with,
seek to invoke nuanced precepts of contract law, all of
which are simply inapplicable to the agreed order at
issue here. Accepting Petitioners’ invitation to address
these inapplicable legal principles would require the
consideration and determination of complex factual
issues, none of which are asserted to involve any
“important question of federal law.” Given that
Petitioners cannot say that there is any federal
question implicated at all by the Fourth Circuit’s
judgment, it can hardly be gainsaid that an important
federal question meriting review simply does not exist.
The Court would act well within its considerable
discretion to deny the petition for that reason alone.
2. There is no conflict of authority.
Petitioners, though decrying a parade of horrors
that they allege could develop if the Management
Order is permitted to stand, nonetheless concede that
there is no conflict of authority to justify the Court’s
exercise of its discretion in favor of review. See, e.g.,
Pet. at 17 (characterizing the appeal waiver as “illadvised,” “unprecedented,” and an “unapologetic abuse”
by both lower courts). The truth is that the district

14
court’s enforcement of the Management Order, which
was agreed to by all Participating Counsel including
Petitioners, is in harmony with the body of authority on
waiver. See § 3, infra. Appeal waivers such as that
agreed upon by Petitioners and memorialized by the
district court years ago are a “common practice”
enforced by “the great weight of authority” and are
encouraged by courts in furtherance of the public policy
of resolving disputes through negotiation and
avoidance of protracted litigation. See Goodsell v.
Shea, 651 F.2d 765, 767 (C.C.P.A.1981); see also
MACTEC, Inc. v. Gorelick, 427 F.3d 821, 830 (10th Cir.
2005) (“[C]ourts routinely enforce agreements that
waive the right to appellate review over district court
decisions.”); Brown v. Gillette Co., 723 F.2d 192, 192-93
(1st Cir. 1983) (holding that “waiver would be
meaningless if it could be eluded merely because an
unsatisfied party, with whatever sincerity or
correctness, felt that the district court had incorrectly
construed the standards by which damages were to be
assessed.”). Rule 10’s emphasis on conflict as one basis
for review militates, in the absence of any conflict,
against the Court’s exercise of its discretion to issue a
writ of certiorari in this matter.
3. In addition to the Petition’s failure to meet
the Court’s criteria for review on certiorari,
the Fourth Circuit properly dismissed
Petitioners’ attempted appeal based on
their knowing and voluntary waiver.
This Court has instructed that a “request for
attorneys’ fees should not result in a second major
litigation.” Hensley v. Eckerhart, 461 U.S. 424, 437

15
(1983). As the district court explained, the sort of
ancillary litigation between lawyers over attorneys’
fees embodied by Petitioners’ arguments on appeal and
now to this Court is precisely what they and all
Plaintiffs’ counsel seeking compensation for common
benefit work sought to avoid by agreeing years ago to
the court’s entry of the Management Order and its
attendant appeal waiver.5
By operation of the
Management Order, disputes of fact bearing on the
common benefit reimbursement deserved by the more
than ninety Participating Counsel firms were
commended for resolution to the district court — which
is unquestionably better equipped to navigate that sort
of factual morass than an appellate court on a cold
record.
Petitioners urge that the appeal waiver should be
rendered null by the district court’s use of allocation
methodology they disfavor to reach an outcome with
which they disagree. Petitioners believe that the court
awarded some firms more in attorney fees than they
deserved, while awarding them less than they
deserved. See Petition at 8-10 (complaining of disparity
in “hourly rates” among applicant firms); id. at 24
(protesting the “undeserved reduction” of Petitioners’
common benefit time and their “disproportionately
lower” hourly rate).

5

See ECF No. 8470, Ethicon MDL 2327 (“Order denying Motion to
Partially Alter, Amend or Reconsider Judgment”), at 2-3; ECF
No. 8471, id. (“Order Denying Appellant’s Motion to Stay”) at 1.

16
Analogous arguments have been considered and
rejected in federal courts throughout the country. For
example, the plaintiff in Ziyad Mini Market v. U.S.,
302 F. Supp. 2d 124 (W.D.N.Y. 2003), argued that he
could not have anticipated events that occurred after
he waived his right of judicial review, such that it
would be unfair to enforce the waiver. The court
disagreed, observing that the plaintiff’s allegation of
unfair surprise after he agreed to the waiver “has no
bearing on the fact that plaintiff knowingly waived his
right to judicial or administrative review,” further
noting that “[h]ad plaintiff wanted a[n] . . . exception,
he could have insisted that one be included in the
agreement. He did not.” 302 F. Supp. 2d at 127-128.
Granting a motion to dismiss an appeal based on an
express appeal waiver in Goodsell v. Shea, 651 F.2d
765 (C.C.P.A.1981), the Court of Custom and Patent
Appeals recognized:
It is common practice for parties in litigation to
agree among themselves to be bound by the
determination of a specific tribunal and not to
prosecute an appeal….In light of the public
policy mandate that disputing parties should be
encouraged to resolve their disputes through
negotiation rather than litigation and,
furthermore, should have a right to control their
own litigious destinies to the extent of deciding
not to pursue appellate review by accepting the
decision of a specified tribunal as final and
thereby avoiding protracted litigation involved
in an appeal, agreements not to appeal should
not be simply ignored.

17
The great weight of authority favors
enforceability of agreements not to appeal from
a decision of a specified tribunal.... Such
agreements have been honored by barring
appellate review proceedings taken in violation
of the agreement.
Id. at 767.
The First Circuit in Brown v. Gillette Co., 723 F.2d
192, 192-93 (1st Cir. 1983), dismissed the defendant’s
appeal based on its express agreement that the trial
court’s determination of the issue of damages would be
final and binding, stating:
Notwithstanding this [appeal waiver] language,
Gillette contends that it is entitled to appeal
from the damages award made here, arguing
that the award is based on an incorrect
interpretation of the matter before the court and
the parties’ agreement relative thereto, and that
the waiver does not preclude an appeal from
such arbitrary decision-making.
We hold that Gillette is bound by the waiver. As
we have stated, “[t]hose who give up the
advantage of a lawsuit in return for obligations
contained in a negotiated decree, rely upon and
have a right to expect a fairly literal
interpretation of the bargain that was struck
and approved by the court.” AMF, Inc. v. Jewett,
711 F.2d 1096, 1101 (1st Cir.1983). This
principle extends to clauses waiving the right to
appeal. Goodsell v. Shea, 651 F.2d 765, 767
(Cust. & Pat.App.1981); cf. Payne v. SS Tropic

18
Breeze, 423 F.2d 236, 238 & n.4 (1st Cir.
1970)…. Gillette agreed to waive any right to
appeal from the district court’s determinations
of the named plaintiffs’ claims.
The defendant in Brown argued that its agreement
to waive its right to appeal any damages awarded by
the district court should not be upheld because the
court acted arbitrarily and misinterpreted the parties’
agreement. See 723 F.2d at 192. In rejecting this
argument, the court in Brown noted that “[t]he waiver
would be meaningless if it could be eluded merely
because an unsatisfied party, with whatever sincerity
or correctness, felt that the district court had
incorrectly construed the standards by which damages
were to be assessed.” Id. at 193.
In Slattery v. Ancient Order of Hibernians in
America, Inc., No. 97-7173, 1998 WL 135601 (D.C. Cir.
1998), the District of Columbia Circuit Court of
Appeals dismissed an appeal based on an agreement to
waive a right to appeal the trial court’s decision
awarding attorney fees and costs, which had been
incorporated in a prior order of the court:
The written settlement agreement and
stipulation of dismissal state that the parties
agree not to appeal any decision by the district
court relating to defendants’ motion for
attorneys’ fees and costs. The district court
reviewed the settlement agreement and
incorporated the terms into its orders. The
parties to the agreement are bound by its terms
and have waived their right to appeal from the

19
September 19,
judgment….

1997

order

of

entry

of

Id. at *1.
Similarly, in In re Lybarger, 793 F.2d 136, 137 (6th
Cir. 1986), the court of appeals dismissed an appeal of
the district court’s attorney’s fee award based on the
parties’ agreement, incorporated in a consent order,
that the trial court’s determination of attorney’s fees
would be final and non-appealable. The Sixth Circuit
negated the plaintiff’s attempt to circumvent the
appeal waiver and rejected any contention that the
district court had acted unlawfully and arbitrarily in
making its fee award, stating instructively:
Plaintiff also argues that even if the settlement
agreement constitutes a valid waiver of her right
to appeal, the parties premised the Consent
Decree on the assumption that the District
Court would rule in accordance with applicable
law and would not act arbitrarily. Plaintiff
claims the District Court acted arbitrarily and
capriciously in denying the supplemental motion
for payment of attorney’s fees without stating
any reasons for its decision. Even assuming that
the District Court acted arbitrarily and
capriciously, we hold that plaintiff assumed the
risk of an unreviewable decision in agreeing to
submit the matter to the District Court for a
final and nonappealable decision.
Id. at 138-39; see also MACTEC, Inc. v. Gorelick, 427
F.3d 821, 827-28 (10th Cir. 2005) (appeal dismissed
based on agreement that district court’s judgment on

20
arbitration award
appealable”).

would

be

“final

and

non-

Like the unsuccessful putative appellants in the
cases cited above, Petitioners knowingly and
voluntarily waived their right of appeal of the district
court’s Allocation Order. Like the arguments rejected
in Ziyad Mini Market, Brown, and Lybarger,
Petitioners’ contention that the district court’s
allocation decision was somehow unanticipated, unfair,
arbitrary, or contrary to law is unavailing. The agreed
Management Order with its appeal waiver was in effect
for more than six years and was expressly incorporated
by reference in multiple subsequent district court
orders, with nary an objection by anyone. Petitioners’
allegations regarding their understanding or
assumption about the allocation process or its outcome
simply has no bearing on its waiver of its right to
appeal. Cf. Ziyad Mini Market, 302 F. Supp. 2d at 127128. As the Sixth Circuit recognized in Lybarger,
Petitioners assumed the risk of an unreviewable
decision by agreeing to submit the determination of an
award of common benefit attorney fees and expenses to
the district court for a final and non-appealable
decision. As noted in Brown, 723 F.2d at 193, the
appeal waiver to which Petitioners agreed would be
meaningless if they could avoid it simply because they
did not get as much money that they believe they
deserve or because they claim to have expected a
different allocation process.

21
4. Petitioners’ attempt to disavow the MDLs in
which Petitioner Anderson signed and
submitted the Management Order only
underscores the logical incongruity of its
position here.
Petitioners’ attempts to marginalize the two MDLs
in which it signed and submitted the Management
Order to the district court demonstrates the invalidity
of its position.6 There is only one MDL common benefit
fund and just one Allocation Order that was the target
of Petitioners’ ill-fated appeal. Petitioners’ notice of
appeal to the Fourth Circuit was filed in each of the
seven MDLs, including the two from which they now
strive to distance themselves. Petitioners’ contention
that this dispute does not involve the two MDLs whose
Management Order bore their signature is a tacit

6

Petitioners maintain that the two MDLs in which it signed the
Management Orders are somehow “moot” or “closed,” and are “not
a part of this appeal.” Petition at 6 & n.3, 20. First, though not
relevant to any issue before the Court, each of the seven pelvic
mesh MDLs is now “closed” to new cases, rendering Petitioners’
attempted distinction on this basis without meaning. More
importantly, Petitioners’ characterizations run directly counter to
their own statement that “the District Court generally handled [all
of these MDLs] collectively, with all MDLs subject to the same
orders and directives.” Petition at 2-3 (emphasis added). The
position that Petitioners stake out is likewise contrary to the
district court’s recognition in its unitary Common Benefit Award
for all MDLs that the litigation was coordinated across MDL lines
with a single PSC appointed for the specific purpose of cross-MDL
coordination. See ECF No. 7519, Ethicon MDL 2327, at 4-5; App.
58-67 (FCC’s Final Written Recommendation outlining in detail
the cross-MDL coordination by the district court and by Plaintiffs’
leadership).

22
admission that its execution of those documents dooms
its argument here. Irrespective of the alleged status or
relative “significance” of those two MDLs, the fact
remains that Petitioners signed and submitted to the
district court the very Management Order containing
the appeal waiver that they now vilify and insist was
improperly foisted upon them.
As a PSC member, Petitioner Anderson reviewed
and approved the Management Order prior to its entry
in each and every MDL. Petitioners’ insistence that
they did not “expressly consent” to the Management
Order is demonstrably inaccurate.7
Petitioner
Anderson was appointed by the district court as a
member of the PSC on April 17, 2012. See ECF No.
120, Ethicon MDL 2327, at 13, 16; App. 218. Each of
the Management Orders entered in all the MDLs
expressly states that it was “Submitted and Approved
by the Plaintiffs’ Coordinating Co-Leads, Executive
Committee and Co-liaison Counsel, who have
consulted and approved the same among all PSC
Counsel.” ECF No. 282, Ethicon MDL 2327, at 15
(emphasis added); see ECF No. 7640-2, id., at ¶ 101
(“The Court’s October 4, 2012, Order was approved
by all members of the PSC and signed and submitted
by all members of the Plaintiffs’ Executive
Committee.”) (emphasis added). The district court
7

Petitioners also blatantly misrepresent the procedural history of
the appeal waiver, alleging that “the FCC member firms and their
allies were obviously eager to establish a quick and unquestionable
fee allocation process when the appeal forfeiture orders were
approved.” Petition at 24. The FCC was not appointed by the
district court until 2016, nearly four years after the agreed
Management Order was entered.

23
similarly observed in its Common Benefit Award that
“[e]very member of the PSC approved this
Management Order, and the Management Order was
entered in the seven MDLs.” ECF No. 7519, id., at 7
(emphasis added).
Indeed, Petitioner Anderson electronically signed
and submitted that same order in two of the MDLs.
Further, as Participating Counsel, Petitioners never
objected or questioned the attendant appeal waiver
during the course of the next six-plus years. Only
years after its entry, when Petitioners became
dissatisfied with the amount of their attorneys’ fee
award, did they — for the first time — seek to attack
the validity of the waiver.
Stated otherwise,
Petitioners would have had no problem with the appeal
waiver had they been awarded the fees they believe
they deserved.
Although nothing needs to be “implied” about the
express appeal waiver, Petitioners’ “implied forfeiture”
argument, see Petition at 19-22, is a misnomer because
they “forfeited” nothing. Contrary to Petitioners’
suggestion, neither they nor any other applicant firm
possessed any “right” or “entitlement” — as
distinguished from a subjective expectation — of
reimbursement from the MDL common benefit fund for
time or expenses incurred in state-court litigation. The
Management Order stated plainly:
The parties have submitted this Agreed Order to
the court in anticipation of the possibility that,
at some time in the future, there may be
applications to this court by attorneys for
payment of common benefit fees or expenses.

24
The court now issues the following preliminary
procedures and guidelines at this early juncture
in the case, but expresses no opinion regarding
whether payment of common benefit fees or
expenses will ever become appropriate. This
Agreed Order merely provides guidance so that,
should the issue become ripe, any attorneys
applying for common benefit fees or expenses
will have notice of the standards the parties
have agreed will be employed in assessing those
applications. These guidelines are not meant to
be exhaustive, and the court may issue
additional procedures, limitations, and
guidelines in the future, if appropriate.
ECF No. 282, Ethicon MDL, at 1. Indeed, the district
court could have exercised its discretion to not consider
any time or expense prior to the formation of the MDL.
See In re Bextra and Celebrex Mktg. Sales Practices and
Prod. Liab. Litig., 386 Fed. App’x 584, 585 (9th Cir.
2010).
No “right” to MDL common benefit
compensation ever existed that Petitioners could
“forfeit,” willingly or otherwise.
5. There is no principled distinction to be
made between the amounts allocated and
the process used to determine them.
Petitioners resort finally to semantics to circumvent
the inevitability of the appeal waiver, urging that the
waiver should be confined in scope to the “amounts”
approved by the district court, while permitting appeal
of the “procedure” employed in their calculation. See
Petition at 24-26. Specifically, Petitioners suggest that
they should not be deemed to have waived their rights

25
with respect to “due process violations,” arguing that it
“should be permitted to seek review of whether the
District Court complied with its earlier orders as well
as rudimentary principles of due process.” Id. at 26.
The plain language of the Management Order
refutes Petitioners’ contention.
Whether their
argument is framed as relating to the amount of their
fee award or to the process under which it was made,
the two cannot be divorced: the appeal waiver
forecloses challenges to both. The Management Order
states that Participating Counsel “acknowledge that
the [district] court will have final, non-appealable
authority regarding the award of fees, the allocation of
those fees and awards for cost reimbursements in this
matter.” ECF No. 282, Ethicon MDL 2327, at 5-6.
Thus, the agreed waiver provision encompasses all
matters “regarding the award of fees” generally and is
not limited to the amount of an applicant’s award.
6. Additional considerations render
matter unsuitable for Court review.

this

Petitioners’ cause teeters between mootness on the
one hand, and a request for an advisory opinion on the
other insofar as the real focus of its challenge is future
common benefit distributions. Petitioners concede that
the money paid out of the common benefit fund to date
is non-recoverable, although they vastly
mischaracterize the amount already distributed as
“tens of millions of dollars.” Petition at 27. In fact, the
court-appointed accountant has disbursed more than
$460 million (including the initial payment and the
first continuing quarterly payment pursuant to the

26
Allocation Order), or greater than ninety percent of the
district court’s estimate of the total holdback.
Respondent would be remiss if it did not also note
for the record that Petitioners unjustifiably impugn the
integrity of the court-appointed ERS and, more
troublingly, the district court and court of appeals.
Petitioners accuse the ERS of being “the FCC’s
advocate” and rubber-stamp, Petition at 7, the district
court of “casually dispens[ing] with dozens of welldeveloped objections and approv[ing] the FCC’s evident
self-dealing,” id. at ii, and the appellate panel of
“unapologetic abuse” and “abdicat[ing] their
fundamental judicial responsibilities,” id. at i. and 14.
The district court did not approve — and the Fourth
Circuit did not enforce — anything that Petitioners did
not knowingly and voluntarily agree to, and any
suggestion to the contrary is specious.
CONCLUSION
For all the foregoing reasons, Respondent urges the
Court to deny the petition for a writ of certiorari.

27
Respectfully submitted,
Benjamin L. Bailey
Counsel of Record
Raymond S. Franks II
BAILEY GLASSER LLP
209 Capitol Street
Charleston, WV 25301
(304) 345-6555
bbailey@baileyglasser.com
rfranks@baileyglasser.com
Counsel for Respondent Common
Benefit Fee and Cost Committee

